TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Controls Over Costs and Building Security
                     Related to Outsourced Office Support
                        Services Need to Be Improved



                                         August 19, 2011

                              Reference Number: 2011-10-086




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


CONTROLS OVER COSTS AND                                locations after being separated from the
BUILDING SECURITY RELATED TO                           contractor. The IRS could not confirm that
OUTSOURCED OFFICE SUPPORT                              116 (94 percent) of the 124 employees
SERVICES NEED TO BE IMPROVED                           separated from the contractor since the initiation
                                                       of the contract returned their identification
                                                       badges and building access cards as required.
Highlights                                             As a result, the security of IRS facilities and
                                                       Federal Government assets may have been
                                                       compromised.
Final Report Issued on August 19, 2011
                                                       WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2011-10-086
to the Internal Revenue Service Chief,                 TIGTA recommended that the Director, Real
Agency-Wide Shared Services.                           Estate and Facilities Management, Agency-Wide
                                                       Shared Services, review all items currently in
IMPACT ON TAXPAYERS                                    storage to identify items for possible disposal;
                                                       maintain documentation regarding the reason for
In November 2006, the Internal Revenue                 storage for all future items placed into
Service (IRS) awarded a contract with a                warehouse storage; establish criteria to guide
maximum value of approximately $90 million to          future decisions regarding whether items should
a private contractor to perform support services       be placed into storage; ensure the IRS retains
functions, including storage and management,           flexibility to implement potential cost savings
throughout IRS facilities. Overall, TIGTA found        identified as a result of inventory reviews or
that the IRS expends time and resources storing        changes to storage policies; and incorporate into
items it has not clearly determined to be of           existing procedures the required exit procedures
future usefulness and has ineffective controls         regarding separating contractor employees.
over credentials, such as identification badges,       Also, the Director, Physical Security and
issued to contractor employees. As a result, the       Emergency Preparedness, Agency-Wide Shared
IRS may be paying more for its support services        Services, should reconcile Contractor Security
needs than is necessary and its facilities may be      Lifecycle Program records to a quarterly listing
at risk for unauthorized access.                       of separated employees provided by the support
WHY TIGTA DID THE AUDIT                                services contractor.

This audit was initiated to determine whether the      In their response, IRS management agreed to
IRS managed outsourced support services in a           our recommendations. Management stated that
cost-effective manner and minimized                    they plan to evaluate the need for continued
unauthorized access to Federal Government              storage of existing property; develop procedures
assets and sensitive information associated with       to capture the condition, age, reason for storage,
the program.                                           and future use of stored property; continue to
                                                       routinely monitor for any changes required to the
WHAT TIGTA FOUND                                       support services contract; and update existing
                                                       procedures to include the process and
TIGTA determined that the IRS should take              procedures to be followed for separating
additional steps to ensure support services are        contractor employees. Finally, management
managed in a more cost-effective and secure            stated that contractors are required to report all
manner. Specifically, the IRS should evaluate          separated contractor employee information to
whether it is cost effective to continue to move       the Contractor Security Lifecycle Program in
into storage rather than dispose of furniture and      accordance with new security clauses. In
equipment that has not been clearly determined         addition, the IRS plans to have the contractor
to be of future usefulness.                            provide a quarterly list of separated contractor
In addition, TIGTA determined that controls            employees to the IRS for review.
should be improved to ensure contractor
employees no longer have access to IRS
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 19, 2011

 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Controls Over Costs and Building Security
                             Related to Outsourced Office Support Services Need to Be Improved
                             (Audit # 201010001)

 This report presents the results of our review of outsourced support services. The overall
 objectives of this review were to determine whether the Internal Revenue Service (IRS) managed
 outsourced support services in a cost-effective manner and minimized unauthorized access to
 Federal Government assets and sensitive information associated with the program. This review
 was included in our Fiscal Year 2010 Annual Audit Plan and addresses the major management
 challenge of Leveraging Data to Improve Program Effectiveness and Reduce Costs.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                             Controls Over Costs and Building Security Related to
                           Outsourced Office Support Services Need to Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Should Take Steps to
          Determine if Support Services Can Be Managed in a
          More Cost-Effective Manner ........................................................................ Page 3
                    Recommendations 1 and 2: ................................................ Page 5

                    Recommendations 3 and 4: ................................................ Page 6

          Controls Over Contractor Employee Access to
          Federal Government Assets and Facilities Are
          Ineffective to Guard Against Unauthorized Access...................................... Page 6
                    Recommendations 5 and 6: ................................................ Page 8


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measures............................................................... Page 13
          Appendix V – Management’s Response to the Draft Report ....................... Page 15
         Controls Over Costs and Building Security Related to
       Outsourced Office Support Services Need to Be Improved




                   Abbreviations

COTR         Contracting Officer’s Technical Representative
CSLP         Contractor Security Lifecycle Program
IRS          Internal Revenue Service
REFM         Real Estate and Facilities Management
URS          URS Federal Technical Services
                         Controls Over Costs and Building Security Related to
                       Outsourced Office Support Services Need to Be Improved




                                            Background

In November 2006, the Internal Revenue Service (IRS) Office of Real Estate and Facilities
Management (REFM) entered into a contract with EG&G Technical Services (a wholly owned
subsidiary of URS Corporation and later renamed URS Federal Technical Services, Inc.) to
provide support services to the IRS. Support services include the moving and storage of
equipment and furniture, inventory management of storage items, and miscellaneous work order
processing, such as property and locksmith repairs. The
contract was awarded for 5 years, with a maximum                      In November 2006, the
contract value of approximately $90 million. Through                Internal Revenue Service
April 29, 2011, URS Federal Technical Services (hereafter         outsourced support services
referred to as URS) had performed and received payment               to a private contractor.
for services representing approximately $79 million, with           Support  services include
                                                                    warehousing and repairs.
approximately $11 million of payments occurring in
Fiscal Year 2011 as of that date. These costs relate only to
payments from the IRS to URS for its performance under the terms of the contract and do not
include costs the IRS may incur related to the support of the contract, such as oversight or rent
related to warehouse space used to store inventory.
According to the terms of the contract, URS is responsible for providing warehousing,
transportation, repairs, other support services such as locksmithing, and work order processing
that directly or indirectly support IRS employees located at offices throughout the 48 contiguous
United States. The URS manages warehouse space at the following offices: 12 IRS campuses1
and/or computing centers,2 the IRS National Headquarters in Washington, D.C., and the New
Carrollton Federal Building.
As part of the contract with URS, furniture and equipment, such as desks, chairs, and computer
monitors, are often moved from an IRS location and placed into storage for potential future
business needs. URS is responsible for moving such designated furniture and equipment within
IRS office space and overseeing items in designated storage areas located within IRS space. In
addition, URS agreed to provide a fully automated management information system, established




1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the computing centers for analysis and posting to taxpayer accounts.
2
  IRS computing centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                           Page 1
                         Controls Over Costs and Building Security Related to
                       Outsourced Office Support Services Need to Be Improved



as the Warehouse and Transportation Management System.3 This system can be used to manage
work order processing, including the development of databases to account for items moved from
IRS locations and placed into storage.
URS employees are staffed at 10 campus locations, 2 computing centers, the IRS National
Headquarters in Washington, D.C., and the New Carrollton Federal Building. After passing a
required background investigation, the IRS provides URS employees daily access to IRS
facilities through the issuance of identification badges and building access cards to perform the
support services duties. Although URS is permitted to obtain the services of subcontractors for
required services at IRS locations when necessary, our audit work did not examine the use or
work activity of any subcontractors obtained by URS.
This review was performed at the Kansas City Campus in Kansas City, Missouri; the
Martinsburg Computing Center in Kearneysville, West Virginia; the Brookhaven Campus in
Holtsville, New York; and the Arlington, Virginia, office of the IRS Agency-Wide Shared
Services, Real Estate and Facilities Management, during the period September 2010 through
April 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
 The Warehouse and Transportation Management System is an automated inventory and information system that
manages warehousing, transportation, repairs, and other logistic services. This system records and tracks all the
work performed by URS, maintains a complete inventory of all products stored, and generates work tickets for URS
based on work requests from the IRS.
                                                                                                          Page 2
                         Controls Over Costs and Building Security Related to
                       Outsourced Office Support Services Need to Be Improved




                                      Results of Review

We determined that the IRS should take additional steps to ensure support services are managed
in a more cost-effective and secure manner. Specifically, the IRS should determine if it can
reduce present costs by disposing of items currently in storage that it no longer needs. As of
September 2010, the IRS had 80,6064 items in URS-managed storage, with 28 percent in storage
18 months or longer with no activity. The IRS should also evaluate whether it is cost effective to
continue to move into storage rather than dispose of furniture and equipment that it has not
clearly determined to be of use in the future. A comprehensive evaluation of this process may
enable the IRS to reduce costs and more efficiently use its resources. This is especially
important given the current economic environment and the increased focus by the
Administration, Congress, and American taxpayers on Federal Government accountability and
efficient use of resources.
In addition, the security of IRS facilities and Federal Government assets may have been
compromised. The IRS could not confirm that 116 (94 percent) of the 124 employees who had
separated from URS since the initiation of the contract returned their identification badges and
building access cards as required. As a result, we determined that controls should be improved
to ensure URS employees no longer have access to IRS locations after separating from the
contractor.

The Internal Revenue Service Should Take Steps to Determine if
Support Services Can Be Managed in a More Cost-Effective Manner
The IRS is currently in the final option year of its original contract for support services and is
now preparing to solicit bids for another support services contract. In preparation for solicitation
of a new support services contract, the IRS has compiled data trending the types and frequency
of work performed by the current contractor. While this trending data may provide the IRS with
some beneficial management information, we believe additional steps are needed to determine
how support services can be managed in a more cost-effective manner.
Specifically, the IRS has not fully considered whether the continued long-term storage of the
80,606 items in URS-managed storage is either cost beneficial or necessary to the effective
delivery of its mission. While storing new or used furniture and equipment in good condition for
future use may be a good use of taxpayer funds, the IRS needs to evaluate and determine whether

4
  There were a total of 176,075 items in warehouse storage, including boxes and paper. Boxes and paper constituted
95,469 items as of September 2010. We excluded boxes and paper from our inventory count as those items are not
significant in terms of space used.
                                                                                                           Page 3
                         Controls Over Costs and Building Security Related to
                       Outsourced Office Support Services Need to Be Improved



the storage of such items is still cost effective or if the items should be disposed of, especially
those items that are aged or that the IRS does not think it will use again. Hindering this
evaluation is the lack of comprehensive information regarding why items were placed into
storage and if, or when, it is estimated that the items will be used again. Information regarding
the age and condition of items stored is also not maintained. We identified that 22,486
(28 percent)5 of 80,606 items that reside in contractor-managed warehouse space have been in
storage for 18 months or longer and have had no activity. We reviewed 90 randomly selected
items placed into storage prior to October 1, 2009, and found that the IRS had not specifically
identified any of these items as designated for either a renovation that was currently in process or
any renovation or reconfiguration planned for the future.
The contractor provides the IRS a list of items stored in inventory that have not been used for
over 10 months, and the IRS periodically distributes this list to be reviewed by REFM personnel.
However, without comprehensive information regarding why these items were initially placed in
storage and their age and condition, it is difficult for REFM personnel to reliably gauge the need
or cost effectiveness of continuing to store these items in the warehouse. In addition, the IRS has
not developed procedures to assist REFM personnel in making future decisions regarding
whether items should be placed into storage or be disposed of based on an analysis of the costs
and expected benefits, including the costs incurred in moving items to storage, storing the items,
and returning the items to use. The Standards for Internal Control in the Federal Government
requires that management identify risks and develop controls to monitor performance measures.
Although the support services contract was awarded to provide cost-effective services, sufficient
information is not maintained and adequate procedures have not been developed to support this
objective.
Based on the approximately 123,000 square feet used by the IRS to store inventory, we
determined that 34,194 square feet of warehouse space was devoted to the storage of the
22,486 items in storage for 18 months or longer with no further activity. If these items were not
needed, the warehouse space could have been used for other purposes. The amount of time the
22,486 items remained unused, combined with the lack of information on the potential future
need, such as the age or condition of the stored items or whether they were designated for a
future project, raises significant questions about the likelihood these items will be placed back
into use. The rent cost associated with these 34,194 square feet of warehouse space is
approximately $862,000 annually.
Overall, we found the inventory records in two of three warehouse locations we visited to be
generally accurate. However, a significant portion of stored inventory at one warehouse location
we visited had been removed from the inventory control system due to construction at the


5
  The IRS provided to us the list of 80,606 items maintained in storage as of September 14, 2010, and the list of
items in storage 10 or more months with no activity as of September 1, 2010. The slight difference in the timing of
the two lists was not deemed to be material.
                                                                                                             Page 4
                      Controls Over Costs and Building Security Related to
                    Outsourced Office Support Services Need to Be Improved



facility. Specifically, the inventory items at 20 of the 30 storage locations that we sampled
within this warehouse location had been relocated to an auxiliary storage room within the
warehouse. After these items were moved, they were not reinventoried by URS and the new
location of the items was not recorded in the inventory listing, increasing the risk that these items
could be lost or misplaced. The 20 storage locations we sampled represented 97 inventory items.
Having comprehensive and reliable information regarding all items currently in warehouse
storage would allow the IRS to determine if items should continue to be placed in storage in the
future. In addition, this information could be used by IRS management to identify any items
currently in storage that could be removed and disposed of, as appropriate. Removing unneeded
items from warehouse storage could reduce costs associated with contractor management of
stored items. Further, it could enable the IRS to potentially use for other purposes space
currently devoted to storing unneeded items.
In addition, since the IRS is considering a new contract for support services, the IRS needs to
ensure that the next contract will allow the IRS to make cost-effective decisions about the level
of support services needed. For example, the IRS may not complete our recommended action to
assess the level of support services needed before the next contract is awarded. If the IRS locks
into contract terms at a higher level of service than needed, the IRS will be wasting taxpayer
funds paying for unneeded services. The new contract should allow for reduced costs if the IRS
reduces its level of support services.

Recommendations
The Director, REFM, Agency-Wide Shared Services, should:
Recommendation 1: Perform a nationwide, one-time review of all items currently in
warehouse storage to identify any items for possible disposal and ensure all items are recorded
on the inventory system.
       Management’s Response: IRS management agreed with our recommendation and
       will develop an action plan to evaluate the need for continued storage of existing
       property. For items that do not require continued storage, REFM personnel will begin the
       disposal process.
Recommendation 2: Develop procedures requiring responsible REFM personnel at each
warehouse storage site to maintain documentation regarding the condition, age, and reason for
storage, including expectations for future use, for all future items placed into warehouse storage.
       Management’s Response: IRS management agreed with our recommendation and
       plans to develop, implement, and maintain procedures that will capture the condition,
       age, and reason for storage, including expectations for future use for all items placed into
       warehouse storage. In addition, to ensure stored furniture will be better tracked and made


                                                                                              Page 5
                      Controls Over Costs and Building Security Related to
                    Outsourced Office Support Services Need to Be Improved



       available for reuse, the IRS plans to implement a new process for palletizing complete
       workstations.
Recommendation 3: Develop procedures to establish criteria to guide future decisions
regarding whether items should be placed into storage or be disposed of. The IRS should
consider the costs and benefits of placing items in storage, including the costs incurred in moving
items to storage, storing them, and returning the items to use as compared to the cost of replacing
the items.
       Management’s Response: IRS management agreed with our recommendation and
       stated that the IRS is developing procedures to address the need for storage, the length of
       storage, and the future use of stored property. These procedures will consider current and
       future budget constraints, the sustainability initiative to increase the reuse and recycling
       of furniture, costs to store versus to purchase new furniture, and transportation costs.
Recommendation 4: Ensure that the IRS retains flexibility when negotiating the terms of the
next support services contract to implement potential cost savings identified as a result of
inventory reviews or changes to storage criteria or policies to ensure it does not pay for unneeded
support services.
       Management’s Response: IRS management agreed with our recommendation and
       plans to continue to routinely monitor for any changes required to the support services
       contract. All pertinent information regarding required changes will be presented to the
       Office of Procurement for necessary processing and contract modifications.

Controls Over Contractor Employee Access to Federal Government
Assets and Facilities Are Ineffective to Guard Against Unauthorized
Access
Overall, we found that controls over contractor employee access to Federal Government assets
and sensitive information associated with the program are ineffective to guard against potential
unauthorized access. We determined that 124 URS employees had separated from the contractor
since the initiation of the contract with the IRS. However, the IRS could not confirm that
116 (94 percent) of the 124 separated employees returned their badges and building access cards
as required. The IRS informed us that 37 (32 percent) of the 116 separated contractor employees
did not complete required background checks and were not issued badges, and 22 (19 percent) of
the 116 separated contractor employees performed work in locations that required the badges to
be returned to building security personnel prior to the contractor employee leaving the building.
However, the nonissuance or final disposition of badges returned by certain employees could not
be fully substantiated due to the lack of reliable records. As a result, these private contractor
employees potentially still have access to IRS campus locations and field offices. As these IRS
facilities perform duties such as processing taxpayer returns and providing customer service to
taxpayers, unauthorized persons may have access to sensitive information and IRS personnel
                                                                                            Page 6
                         Controls Over Costs and Building Security Related to
                       Outsourced Office Support Services Need to Be Improved



performing tax-related duties. We determined that these 116 employees potentially have
unauthorized access to 12 IRS campuses and computing centers, as well as to the IRS National
Headquarters in Washington, D.C., and the New Carrollton Federal Building. These locations
contain 39,659 IRS employees who are placed at risk from the potential presence of
unauthorized persons.
At the above locations, contractor employees receive security clearance if they receive required
background checks. We selected a sample of 61 contractor employees who performed work and
had been granted access to IRS facilities between November 2006 and August 2010 and
determined that the IRS properly ensured that all 61 employees received security clearances
following required background checks. These contractor employees are granted unescorted
access to IRS facilities and receive identification badges and building access cards where
required. Contractor employees separating from work on the contract must return to the IRS any
IRS facility access media, including identification badges and building access cards.
The local Contracting Officer’s Technical Representative (COTR)6 is tasked with completing the
Separating Contractor Checklist, which documents the return of any facility access media issued
to the contractor employee and the dates those actions took place. The checklist and the returned
facility access media should be forwarded to the Contractor Security Lifecycle Program (CSLP)
Office within the office of the Agency-Wide Shared Services. Further, the CSLP Office is
responsible for processing and coordinating activities provided in the Separating Contractor
Checklist and serves as the primary point of contact and subject matter expert on the contractor
separating process.
Although procedures for local COTRs were developed, the IRS informed us that not all local
COTRs were aware of their responsibilities relating to the separation of contractor employees.
As a result, local COTRs may not be fully aware of the critical importance of 1) securing access
materials from contractor employees upon separation, 2) documenting receipt of these materials
on the Separating Contractor Checklist, and 3) promptly returning unneeded facility access
media to the CSLP Office. Without a reliable methodology for ensuring that separated
employees return their badges and building access cards, the risk of unauthorized access to IRS
facilities is significantly increased.
During our field work, the IRS issued a Policy and Procedures Memorandum in March 2011
revising the roles and responsibilities of IRS personnel in regard to contractor employee security
issues. The memorandum stated that the COTRs are responsible for completing the Separating
Contractor Checklist and submitting it to the CSLP Office, coordinating with the CSLP Office
on separation processes, and obtaining documentation from the contractor that access to
IRS-owned or controlled facilities and IRS information systems (regardless of location) has been

6
  The primary role of the COTR is to provide technical direction, monitor contract performance, and maintain an
arm’s-length relationship with the contractor, ensuring that the Federal Government pays only for the services,
materials, and travel authorized and delivered under the contract.
                                                                                                           Page 7
                      Controls Over Costs and Building Security Related to
                    Outsourced Office Support Services Need to Be Improved



properly and fully terminated. The memorandum also now requires contractors to directly
inform the COTR and the CSLP Office within 1 business day of the separation of an employee.
The IRS has incorporated the new requirements into the support services contract. While the
new procedures address the weaknesses we identified in this audit, the IRS must ensure that the
new procedures are incorporated in COTR procedures and that responsible personnel are trained
on the new requirements. In addition, a list of separated contractor employees provided by the
contractor to the IRS would enhance the IRS’s ability to identify separated contractor employees
who were not reported as required through submission of the Separating Contractor Checklist.
Our audit testing focused on contractor employees only and did not include a determination of
whether any actual unauthorized access was attempted. We referred our findings regarding the
116 separated contractor employees to the Treasury Inspector General for Tax Administration’s
Office of Investigations for further inquiry and development.

Recommendations
The Director, REFM, Agency-Wide Shared Services, should:
Recommendation 5: Ensure the required exit procedures that local COTRs should follow for
separating contractor employees, including the proper completion of the Separating Contractor
Checklist, are incorporated into existing procedures developed specifically for local COTRs
performing work under the support services contract. The Director should also ensure training
on the required procedures is provided to the COTRs.
       Management’s Response: IRS management agreed with our recommendation and
       plans to update the existing Sub-COTR Desk Guide to include the process and
       procedures to be followed for separating contractor employees. The desk guide will
       include the requirement to complete the Separating Contractor Checklist, and appropriate
       training will be provided by the REFM Office.
The Director, Physical Security and Emergency Preparedness, Agency-Wide Shared Services, in
coordination with the Director REFM, Agency-Wide Shared Services, should:
Recommendation 6: Reconcile the CSLP Office records to a quarterly list of separated
contractor employees (by separation date) provided by the support services contractor. The
contractor should first forward the list to the REFM Office, which will then forward the list to
the CSLP Office. This requirement should be included in any future support services contract.
       Management’s Response: IRS management agreed with our recommendation and
       stated that the current contractor and any follow-on contractors are required to report all
       separated contract employee information to the CSLP Office in accordance with the new
       security clauses. In addition, the contractor shall provide a quarterly list of separated
       contractor employees to the REFM Office for review. Once the REFM Office completes
       its review, the list will be provided to the CSLP Office for further processing.

                                                                                            Page 8
                     Controls Over Costs and Building Security Related to
                   Outsourced Office Support Services Need to Be Improved



                                                                                  Appendix I

       Detailed Objectives, Scope, and Methodology

Our overall objectives were to determine whether the IRS managed outsourced support services
in a cost-effective manner and minimized unauthorized access to Federal Government assets and
sensitive information associated with the program. To accomplish our objectives, we:
I.     Determined whether the IRS had established effective controls to minimize the costs
       associated with outsourced office support services.
       A. Identified the type of information available to IRS management to monitor program
          costs.
       B. Determined whether the IRS is making cost-effective decisions regarding the use of
          contractor-managed storage.
          1. Selected three IRS warehouse facilities managed by the contractor which were
             used for maintaining IRS assets such as equipment and furniture. We
             judgmentally selected these 3 sites from a total population of 13 sites to ensure
             that the sites in our sample contained varied attributes unique to each IRS
             warehouse facility.
              a) Selected a random sample of 30 storage locations within each of the
                 3 warehouse facilities selected and physically verified that items in each
                 location were present and should be stored based on the terms of the contract.
                 We used a random sample to ensure each storage location had an equal chance
                 of being selected. The storage location population size was 999 locations in
                 the Kansas City Campus, 674 locations in the Martinsburg Computing Center,
                 and 171 locations in the Brookhaven Campus.
              b) Reviewed a random sample of 30 storage locations within each of the
                 3 warehouse facilities that contained items originally placed into storage prior
                 to October 1, 2009, to determine why the items were placed in storage rather
                 than disposed of. We used a random sample to ensure each storage location
                 had an equal chance of being selected. The storage location population size
                 was 768 locations in the Kansas City Campus, 670 locations in the
                 Martinsburg Computing Center, and 81 locations in the Brookhaven Campus.
          2. Determined whether the IRS performed routine periodic reviews to verify the
             accuracy of items claimed to be stored by the contractor.



                                                                                           Page 9
                      Controls Over Costs and Building Security Related to
                    Outsourced Office Support Services Need to Be Improved



       C. Determined the reliability of computer processed data by comparing the database lists
          of overall inventory and aged inventory to identify potential missing records. We
          determined the data was sufficiently reliable to support our tests.
II.    Evaluated the IRS’s process used to assess whether the outsourcing of support services is
       cost beneficial by reviewing whether the IRS is gathering sufficient management
       information to provide the basis for future decisions on outsourced support services
       contracts.
III.   Assessed the process used to minimize unauthorized access to Government assets and
       sensitive information by contractor employees.
       A. Assessed whether contractor personnel with access to IRS data and assets have
          undergone required security clearances.
           1. Selected a random sample of 50 contractor personnel with current (not terminated
              or otherwise separated per IRS records) access to IRS facilities and evaluated
              whether the sample personnel had a successfully completed background
              investigation. We used a random sample to ensure each contractor employee had
              an equal chance of being selected. The population of our sample was
              106 employees.
           2. Identified contractor employees (11 total contactor personnel) who had current
              access to the facilities selected in Step I.B.1, but were not selected in the sample
              of 50 contractor personnel in Step III.A.1, and determined whether all employees
              had a successfully completed background investigation.
       B. Evaluated the process used to restrict access to only authorized contractor employees.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the IRS’s policies and procedures for
managing its support services contract and preventing unauthorized access to IRS facilities. We
evaluated these controls by interviewing management, reviewing a sample of items stored at selected
sites, and reviewing applicable documentation.




                                                                                            Page 10
                    Controls Over Costs and Building Security Related to
                  Outsourced Office Support Services Need to Be Improved



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Seth A. Siegel, Lead Auditor
James S. Mills, Jr., Senior Auditor
Joseph P. Smith, Senior Auditor




                                                                                     Page 11
                    Controls Over Costs and Building Security Related to
                  Outsourced Office Support Services Need to Be Improved



                                                                   Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Director, Procurement OS:A:P
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Agency-Wide Shared Services OS:A




                                                                         Page 12
                          Controls Over Costs and Building Security Related to
                        Outsourced Office Support Services Need to Be Improved



                                                                                                  Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $861,689 (see page 3).

Methodology Used to Measure the Reported Benefit:
We identified 22,486 (28 percent)1 of 80,606 items that reside in contractor-managed warehouse
space have been in the warehouse for at least 18 months and have not had any activity since they
were placed in inventory. The amount of time these items have remained unused, combined with
the lack of information on the potential future need, such as the age or condition of the stored
item or whether they were designated for a future project, raises significant questions about the
likelihood the items will be placed back into use. Based on the approximately 123,000 square
feet used by the IRS to store inventory, we determined 34,194 square feet of warehouse space
was devoted to the storage of the 22,486 items. The rent cost associated with these
34,194 square feet of warehouse space is approximately $862,000 annually.2

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 97 inventory items removed from contractor
    management and inventory control system (see page 3).

Methodology Used to Measure the Reported Benefit:
During a site visitation to one contractor-managed IRS warehouse facility, we identified that a
significant portion of stored inventory had been removed from the inventory control system due
to construction at the facility. Specifically, the inventory items at 20 of the 30 storage locations
within the 1 warehouse location we sampled had been relocated to an auxiliary storage room
within the warehouse. After these items were moved, they were not reinventoried by URS and
the new location of the items was not recorded in the inventory list, increasing the risk that these

1
 The exact figure for calculation purposes is 0.278.
2
 Using the IRS’s Graphic Database Interface system, we calculated the average rent cost of the 14 IRS facilities
used to store inventory at $25.20 per square foot per year. As a result, the value of the resources which could be
available to the IRS for other purposes is $861,688.80 ($25.20 multiplied by the 34,194 square feet).
                                                                                                             Page 13
                      Controls Over Costs and Building Security Related to
                    Outsourced Office Support Services Need to Be Improved



items could be lost or misplaced. The 20 storage locations we sampled represented 97 inventory
items.

Type and Value of Outcome Measure:
•   Protection of Resources – Potential; 14 facilities, including 12 IRS campuses and/or
    computing centers, the IRS National Headquarters in Washington, D.C., and the New
    Carrollton Federal Building which are potentially at risk for unauthorized access; and 39,659
    total IRS employees working and potentially affected in those 14 facilities (see page 6).

Methodology Used to Measure the Reported Benefit:
Using lists provided to us by the IRS, we identified 124 contractor employees that either
separated from contractor employment or could not be definitively identified as currently
employed based on the information provided in the lists. However, these lists did not contain
sufficient information and the IRS could not provide corroborating documentation to confirm
that 116 (94 percent) of the 124 separated contractor employees properly returned facility access
credentials, such as identification badges and building access cards, upon their separation from
employment. As a result, these private contractor employees potentially still have access to IRS
campus locations and field offices. URS maintains employees at 14 IRS facilities and, using the
IRS’s Graphic Database Interface system, we identified 39,659 IRS employees who work at
those 14 locations.




                                                                                          Page 14
       Controls Over Costs and Building Security Related to
     Outsourced Office Support Services Need to Be Improved



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 15
  Controls Over Costs and Building Security Related to
Outsourced Office Support Services Need to Be Improved




                                                    Page 16
  Controls Over Costs and Building Security Related to
Outsourced Office Support Services Need to Be Improved




                                                    Page 17
  Controls Over Costs and Building Security Related to
Outsourced Office Support Services Need to Be Improved




                                                    Page 18
  Controls Over Costs and Building Security Related to
Outsourced Office Support Services Need to Be Improved




                                                    Page 19
